               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 14-00688-162




    Combined Assessment Program 

            Review of the 

    Canandaigua VA Medical Center 

       Canandaigua, New York 





May 14, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 CS             controlled substances
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Canandaigua VA Medical Center
                 FY             fiscal year
                 MADHC          mobile adult day health care
                 MEC            Medical Executive Committee
                 MH             mental health
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PRC            Peer Review Committee
                 QM             quality management
                 RRTP           residential rehabilitation treatment program
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                          CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishment........................................................................................                    2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     6

  Medication Management – CS Inspection Program ................................................                                   9

  Nurse Staffing .........................................................................................................        10

  CLC Resident Independence and Dignity ...............................................................                           11

  MH RRTP ...............................................................................................................         13

  Management of Test Results ..................................................................................                   14


Appendixes
  A. Facility Profile ....................................................................................................        16

  B. Strategic Analytics for Improvement and Learning ............................................                                17

  C. Interim VISN Director Comments ......................................................................                        20

  D. Facility Director Comments ...............................................................................                   21

  E. OIG Contact and Staff Acknowledgments .........................................................                              25

  F. Report Distribution .............................................................................................            26

  G. Endnotes ...........................................................................................................         27





VA OIG Office of Healthcare Inspections
                                CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
March 24, 2014.

Review Results: The review covered seven activities.                          We    made     no
recommendations in the following three activities:

 Quality Management

 Medication Management – Controlled Substances Inspection Program

 Mental Health Residential Rehabilitation Treatment Program

The facility’s reported accomplishment was the Mobile Adult Day Health Care Outreach
Program.

Recommendations: We made recommendations in the following four activities:
Environment of Care: Ensure Environment of Care Work Group minutes reflect that
actions are taken in response to identified deficiencies. Establish a policy for the safe
use of fluoroscopic equipment. Ensure all designated x-ray/fluoroscopy employees
receive annual fluoroscopy safety training.

Nurse Staffing: Include all required members on the facility expert panel.

Community Living Center Resident Independence and Dignity: Consistently document
weekly and monthly restorative nursing notes according to local policy.

Management of Test Results: Ensure that providers are notified of critical laboratory and
abnormal radiology test results/values within the expected timeframe and that patients
are notified of normal test results/values within the expected timeframe. Document
provider and patient notification of test results in the electronic health records.

Comments
The Interim Veterans Integrated Service Network Director and Facility Director agreed
with the Combined Assessment Program review findings and recommendations and
provided acceptable improvement plans. (See Appendixes C and D, pages 20–24, for




VA OIG Office of Healthcare Inspections                                                        i
                                CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY


the full text of the Directors’ comments.) We consider recommendation 3 closed. We
will follow up on the planned actions for the open recommendations until they are
completed.




                                                         JOHN D. DAIGH, JR., M.D. 

                                                        Assistant Inspector General for 

                                                           Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                        ii
                                CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management – CS Inspection Program

   	 Nurse Staffing

   	 CLC Resident Independence and Dignity

   	 MH RRTP

   	 Management of Test Results

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012, FY 2013, and FY 2014 through
March 21, 2014, and was done in accordance with OIG standard operating procedures
for CAP reviews.     We also asked the facility to provide the status on the


VA OIG Office of Healthcare Inspections                                                       1
                                CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY


recommendations we made in our previous CAP report (Combined Assessment
Program Review of the Canandaigua VA Medical Center, Canandaigua, New York,
Report No. 10-00475-38, November 30, 2010).

During this review, we presented crime awareness briefings for 116 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
269 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                          Reported Accomplishment 

MADHC Outreach Program
The MADHC Outreach Program was developed to support the needs of rural and
suburban veterans by bringing meaningful adult day health care services closer to
where veterans live. The program team, which consists of a certified therapeutic
recreation specialist, a certified nursing assistant, and a recreation assistant, travels to
four sites to deliver care consistent with a social model adult day health care program.
The team provides assistance with some activities of daily living and provides
therapeutic services designed to help participants with physical and mental functioning.
A program manager oversees the coordination of the services for veterans and
caregivers.

Since the program’s start on June 6, 2010, through September 2013 there have been
260 veterans referred to the program. At the close of FY 2013, there were 66 veterans
and 60 caregivers receiving services. The program was the regional recipient of the
New York Organization of Nurse Executives 2011 Best Practice Award. In addition, the
VA Office of Nursing Services selected the program as one of its Nursing Services
Innovations Award recipients in 2011. The MADHC Program manager has assisted
three VHA facilities with developing similar programs.




VA OIG Office of Healthcare Inspections                                                       2
                                          CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. Any items that did not apply to this facility are marked NA. The facility generally met
requirements. We made no recommendations.

NM                     Areas Reviewed                                       Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
       The protected peer review process met
       selected requirements:
        The PRC was chaired by the Chief of Staff
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated and completed, and results
       were reported to the MEC.
 NA    Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                 3
                                          CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY


NM               Areas Reviewed (continued)                                 Findings
NA     Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          re-assessed timely.
 NA    Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       The process to review resuscitation events
       met selected requirements:
        An interdisciplinary committee was
          responsible for reviewing episodes of care
          where resuscitation was attempted.
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
 NA    The surgical review process met selected
       requirements:
        An interdisciplinary committee with
          appropriate leadership and clinical
          membership met monthly to review surgical
          processes and outcomes.
        All surgical deaths were reviewed.
        Additional data elements were routinely
          reviewed.
 NA    Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                 4
                                          CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY


NM              Areas Reviewed (continued)                                  Findings
NA     The process to review blood/transfusions
       usage met selected requirements:
        A committee with appropriate clinical
          membership met at least quarterly to review
          blood/transfusions usage.
        Additional data elements were routinely
          reviewed.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 5
                                          CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

We inspected three CLC units, the primary care and physical therapy clinics, and the radiology
department. Additionally, we reviewed relevant documents, conversed with key employees and
managers, and reviewed eight radiology employee training records. The table below shows the
areas reviewed for this topic. The areas marked as NM did not meet applicable requirements
and needed improvement. Any items that did not apply to this facility are marked NA.

NM            Areas Reviewed for General EOC                              Findings
 X     EOC Committee minutes reflected sufficient     Six months of EOC Work Group meeting
       detail regarding identified deficiencies,      minutes reviewed:
       corrective actions taken, and tracking of       Minutes did not reflect that actions were taken
       corrective actions to closure.                    in response to identified deficiencies.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.                 
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
                Areas Reviewed for Radiology
       The facility had a Radiation Safety Committee,  
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.
       Radiation Safety Committee meeting minutes
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.
       Facility policy addressed frequencies of
       equipment inspection, testing, and
       maintenance.
 X     The facility had a policy for the safe use of   The facility did not have a policy for the safe
       fluoroscopic equipment.                           use of fluoroscopic equipment.



VA OIG Office of Healthcare Inspections                                                                 6
                                          CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY


NM        Areas Reviewed for General Radiology                               Findings
                          (continued)
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
       Designated employees received initial
       radiation safety training and training thereafter
       with the frequency required by local policy,
       and radiation exposure monitoring was
       completed for employees within the past year.
       Environmental safety requirements in x-ray
       and fluoroscopy were met.
       Infection prevention requirements in x-ray and
       fluoroscopy were met.
       Medication safety and security requirements
       in x-ray and fluoroscopy were met.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.
 X     The facility complied with any additional           VHA Handbook 1105.04 reviewed:
       elements required by VHA, local policy, or           Seven of the eight x-ray/fluoroscopy
       other regulatory standards.                           employees did not receive annual fluoroscopy
                                                             safety training.
               Areas Reviewed for Acute MH
 NA    MH EOC inspections were conducted every
       6 months.
 NA    Corrective actions were taken for                    
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.
 NA    MH unit staff, Multidisciplinary Safety              
       Inspection Team members, and occasional
       unit workers received training on how to
       identify and correct environmental hazards,
       content and proper use of the MH EOC
       Checklist, and VA’s National Center for
       Patient Safety study of suicide on psychiatric
       units.
 NA    The locked MH unit(s) was/were in
       compliance with MH EOC Checklist safety
       requirements or an abatement plan was in
       place.




VA OIG Office of Healthcare Inspections                                                                 7
                                          CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY


NM      Areas Reviewed for Acute MH (continued)                             Findings
NA     The facility complied with any additional          
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

1. We recommended that processes be strengthened to ensure that EOC Work Group
minutes reflect that actions are taken in response to identified deficiencies.

2. We recommended that the facility establish a policy for the safe use of fluoroscopic
equipment and that compliance with the newly established policy be monitored.

3. We recommended that processes be strengthened to ensure that all designated
x-ray/fluoroscopy employees receive annual fluoroscopy safety training.




VA OIG Office of Healthcare Inspections                                                                 8
                                          CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY


Medication Management – CS Inspection Program
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of the CS Coordinators and 10 CS inspectors and inspection documentation from
6 CS areas, the pharmacies, and the emergency drug cache. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

NM                      Areas Reviewed                                      Findings
       Facility policy was consistent with VHA
       requirements.
       VA police conducted annual physical security
       surveys of the pharmacy/pharmacies, and any
       identified deficiencies were corrected.
       Instructions for inspecting automated
       dispensing machines were documented,
       included all required elements, and were
       followed.
       Monthly CS inspection findings summaries
       and quarterly trend reports were provided to
       the facility Director.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
       CS inspectors were appointed in writing, were
       limited to 3-year terms, completed required
       certification and training, and were free from
       conflicts of interest.
       Non-pharmacy areas with CS were inspected
       in accordance with VHA requirements, and
       inspections included all required elements.
       Pharmacy CS inspections were conducted in
       accordance with VHA requirements and
       included all required elements.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 9
                                          CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY


Nurse Staffing
The purpose of this review was to determine whether the facility implemented the staffing
methodology for nursing personnel and completed annual reassessments and to evaluate nurse
staffing on one long-term care inpatient unit.4

We reviewed facility and unit-based expert panel documents and 11 training files, and we
conversed with key employees. Additionally, we reviewed the actual nursing hours per patient
day for 1 randomly selected unit—CLC unit 3A—for 50 randomly selected days between
October 1, 2012, and September 30, 2013. The table below shows the areas reviewed for this
topic. The area marked as NM did not meet applicable requirements and needed improvement.
Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                       Findings
       The facility either implemented or reassessed
       a nurse staffing methodology within the
       expected timeframes.
 X     The facility expert panel followed the required    The facility expert panel did not include direct
       processes and included the required                 patient care staff and evening and night
       members.                                            supervisory staff.
       The unit-based expert panels followed the
       required processes and included the required
       members.
       Members of the expert panels completed the
       required training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

4. We recommended that the annual staffing plan reassessment process ensures that the
facility expert panel includes all required members.




VA OIG Office of Healthcare Inspections                                                                  10
                                          CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY


CLC Resident Independence and Dignity
The purpose of this review was to determine whether VHA facilities provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.5

We reviewed 13 EHRs of residents (10 residents receiving restorative nursing services and
3 residents not receiving restorative nursing services but candidates for services). We also
observed seven residents during two meal periods, reviewed six employee training/competency
records and other relevant documents, and conversed with key employees. The table below
shows the areas reviewed for this topic. The area marked as NM did not meet applicable
requirements and needed improvement. Any items that did not apply to this facility are marked
NA.

NM                      Areas Reviewed                                       Findings
       The facility offered restorative nursing
       services.
       Facility staff completed and documented
       restorative nursing services, including active
       and passive range of motion, bed mobility,
       transfer, and walking activities, according to
       clinician orders and residents’ care plans.
       Resident progress towards restorative nursing
       goals was documented, and interventions
       were modified as needed to promote the
       resident’s accomplishment of goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
       Training and competency assessment were
       completed for staff who performed restorative
       nursing services.
 X     The facility complied with any additional         Facility Restorative Nursing Program policy
       elements required by VHA or local policy.         reviewed:
                                                          Restorative nursing staff did not consistently
                                                            document weekly and monthly notes as
                                                            required by local policy in any of the
                                                            10 applicable EHRs.




VA OIG Office of Healthcare Inspections                                                                 11
                                          CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY


NM         Areas Reviewed for Assistive Eating                                Findings
                Devices and Dining Service
       Care planned/ordered assistive eating devices
       were provided to residents at meal times.
       Required activities were performed during
       resident meal periods.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

5. We recommended that processes be strengthened to ensure that restorative nursing staff
consistently document weekly and monthly notes according to local policy and that compliance
be monitored.




VA OIG Office of Healthcare Inspections                                                                12
                                          CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY


MH RRTP
The purpose of this review was to determine whether the facility’s domiciliary and Psychiatric
Residential Rehabilitation Program units complied with selected EOC requirements.6

We reviewed relevant documents, inspected two units, and conversed with key employees. The
table below shows the areas reviewed for this topic. Any items that did not apply to this facility
are marked NA. The facility generally met requirements. We made no recommendations.

NM                     Areas Reviewed                                       Findings
       The residential environment was clean and in
       good repair.
       Appropriate fire extinguishers were available
       near grease producing cooking devices.
       There were policies/procedures that
       addressed safe medication management and
       contraband detection.
       Monthly MH RRTP self-inspections were
       conducted, documented, and included all
       required elements; work orders were
       submitted for items needing repair; and any
       identified deficiencies were corrected.
       Contraband inspections, staff rounds of all
       public spaces, daily bed checks, and resident
       room inspections for unsecured medications
       were conducted and documented.
       Written agreements acknowledging resident
       responsibility for medication security were in
       place.
       The main point(s) of entry had keyless entry
       and closed circuit television monitoring, and
       all other doors were locked to the outside and
       alarmed.
       Closed circuit television monitors with
       recording capability were installed in public
       areas but not in treatment areas or private
       spaces, and there was signage alerting
       veterans and visitors that they were being
       recorded.
       There was a process for responding to
       behavioral health and medical emergencies,
       and staff were able to articulate the
       process(es).
       In mixed gender units, women veterans’
       rooms were equipped with keyless entry or
       door locks, and bathrooms were equipped
       with door locks.
       Medications in resident rooms were secured.
       The facility complied with any additional
       elements required by VHA or local policy.


VA OIG Office of Healthcare Inspections                                                                13
                                          CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY


Management of Test Results
The purpose of this review was to evaluate whether VHA facilities complied with selected
requirements for managing test results.7

We reviewed relevant policies and procedures and the EHRs of 20 patients who had critical
laboratory or abnormal radiology test results/values in FY 2013 (10 for laboratory and 10 for
radiology). In addition, we reviewed the EHRs of 30 patients who had normal laboratory,
radiology, or Pap smear results/values. We also conversed with key employees. The table
below shows the areas reviewed for this topic. The areas marked as NM did not meet
applicable requirements and needed improvement. Any items that did not apply to this facility
are marked NA.

NM                    Areas Reviewed                                         Findings
      The facility had a written policy or guideline
      that addressed the management of
      critical/abnormal test results/values, and
      compliance was monitored.
 X    Providers were notified of critical/abnormal test    Three of the 10 EHRs of patients with critical
      results/values by appropriate staff within the        laboratory results/values did not contain
      expected timeframe.                                   documentation of provider notification within
                                                            the facility’s expected timeframe of
                                                            30 minutes.
                                                           Six of the nine applicable EHRs of patients
                                                            with abnormal radiology results/values did not
                                                            contain documentation of provider notification
                                                            within the facility’s expected timeframe of
                                                            30 minutes.
      Patients were notified of critical/abnormal test
      results/values within the expected timeframe
      and by the approved method of
      communication.
      Follow-up actions were taken in response to
      critical/abnormal test results/values.
 X    Patients were notified of normal test                Twelve of the applicable 30 EHRs
      results/values within the expected timeframe.         (40 percent) did not contain documentation of
                                                            patient notification of normal test
                                                            results/values.
                                                           Three of the applicable 18 EHRs did not
                                                            contain documentation of patient notification
                                                            within 14 days.
      The facility complied with any additional
      elements required by VHA or local policy.

Recommendations

6. We recommended that processes be strengthened to ensure that providers are notified of
critical laboratory and abnormal radiology test results/values within the expected timeframe and
that notification is documented in the EHRs.


VA OIG Office of Healthcare Inspections                                                                 14
                                          CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY


7. We recommended that processes be strengthened to ensure that all patients are notified of
normal test results/values within the expected timeframe and that notification is documented in
the EHRs.




VA OIG Office of Healthcare Inspections                                                                15
                                       CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY
                                                                                            Appendix A


          Facility Profile (Canandaigua/528A5) FY 2014 through
                                March 2014a
Type of Organization                                                                      Secondary
Complexity Level                                                                          3-Low complexity
Affiliated/Non-Affiliated                                                                 Affiliated
Total Medical Care Budget in Millions                                                     $107.8
Number of:
    Unique Patients                                                                      14,145
    Outpatient Visits                                                                    79,662
    Unique Employeesb                                                                    896
Type and Number of Operating Beds (December 2013):
    Hospital                                                                             NA
    CLC                                                                                  138
    MH                                                                                   80
Average Daily Census (January 2014):
    Hospital                                                                             NA
    CLC                                                                                  102
    MH                                                                                   44
Number of Community Based Outpatient Clinics                                              1
Location(s)/Station Number(s)                                                             Rochester/528GE
VISN Number                                                                               2




a
    All data is for FY 2014 through March 2014 except where noted. 

b
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                      16
                                                                 CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY
                                                                                                                      Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)c




c
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                       17
                                                      CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                            18
                                                                                                  CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY


                                                                         Metric Definitions
 Measure                       Definition                                                                           Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)    A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                              A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                           A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                 A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                          A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)       A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                        A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                    A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                               A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                 A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                       A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                 A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)    A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)             A higher value is better than a lower value
 PSI                           Patient safety indicator                                                             A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                     A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                       A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction              A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                 A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction            A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure               A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                              A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                  A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                       A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)           A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                           19
                                CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY
                                                                                     Appendix C
                       Interim VISN Director Comments



               Department of
               Veterans Affairs                                  Memorandum


           Date:       April 28, 2014

          From:        Interim Director, VA Health Care Upstate New York (10N2)

       Subject: 	      CAP Review of the Canandaigua VA Medical Center,
                       Canandaigua, NY

             To:       Director, Bedford Office of Healthcare Inspections (54BN)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. We are submitting written comments in response to the CAP Review of
          the Canandaigua VA Medical Center completed March 24–27, 2014, in
          Canandaigua, New York.

       2. In reviewing the draft report, the facility addressed all identified
          deficiencies and has a plan to resolve all non-compliant areas cited in
          the report. Network 2 concurs with the report.

       3. If you have any questions regarding this response, please contact
          Karen Strobel, VISN 2 Quality Management Officer, (518) 626-7325.




VA OIG Office of Healthcare Inspections                                                      20
                                CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY
                                                                                     Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                  Memorandum


           Date:       April 28, 2014

          From:        Director, Canandaigua VA Medical Center (528A5/00)

       Subject:        CAP Review of the Canandaigua VA Medical Center,
                       Canandaigua, NY

             To:       Interim Director, VA Health Care Upstate New York (10N2)

       1. We are submitting written comments in response to the CAP Review of
          the Canandaigua VA Medical Center completed March 24–27, 2014, in
          Canandaigua, New York.

       2. In reviewing the draft report, the facility has addressed all identified
          deficiencies and has a plan to resolve all non-compliant areas cited in
          the report. I concur with the report.

       3. If you have any questions regarding this response, please contact
          Paula LeGrett, Quality Manager at (585) 393-7573.




VA OIG Office of Healthcare Inspections                                                      21
                                CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
EOC Work Group minutes reflect that actions are taken in response to identified
deficiencies.

Concur

Target date for completion: April 30, 2014

Facility response: Members of the EOC Rounds Work Group will be trained on the use
of a new automated system designed to report deficiencies and track progress through
an action plan log to ensure ongoing tracking and trending of actions through closure.

Improved reporting to EOC Committee will include a spreadsheet with itemized
information on every inspected area including, the total number of deficiencies found,
the open deficiencies for the department, the number of days left to complete the open
deficiencies, and responsible party(s) for each deficiency. Auditing reports will be
reported to the EOC Committee monthly to ensure compliance is monitored through
closure.

Recommendation 2. We recommended that the facility establish a policy for the safe
use of fluoroscopic equipment and that compliance with the newly established policy be
monitored.

Concur

Target date for completion: May 25, 2014

Facility response: A new Facility Radiation and Fluoroscopy Safety policy was
developed. Compliance with the newly established policy will be monitored by the
Radiology Chief and through Radiology Department minutes. Auditing results will be
reported to The Executive Committee for Medical Staff quarterly to ensure compliance
is monitored.

Recommendation 3. We recommended that processes be strengthened to ensure that
all designated x-ray/fluoroscopy employees receive annual fluoroscopy safety training.

Concur

Target date for completion: April 25, 2014




VA OIG Office of Healthcare Inspections                                                      22
                                CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY


Facility response: All radiology staff have completed the mandatory annual fluoroscopy
safety training provided through the TMS course Item VA 1332023, “V02 X-Ray
Radiation Safety. Chief of Radiology will monitor staff TMS Compliance/Deficiency
Reports to ensure annual training.

Recommendation 4. We recommended that the annual staffing plan reassessment
process ensures that the facility expert panel includes all required members.

Concur

Target date for completion: May 1, 2014

Facility response: The Facility Expert Panel for FY 14 will include all the required
members as follows: Direct care staff nurses, Associate Chief Nurse for Geriatrics,
evening and night supervisory staff, Geriatric Nurse Managers, Fiscal personnel.
Associate Chief Nurse for Patient Care Services (ADPNS) will ensure additional
members have been added.

Recommendation 5. We recommended that processes be strengthened to ensure that
restorative nursing staff consistently document weekly and monthly notes according to
local policy and that compliance be monitored.

Concur

Target date for completion: April 18, 2014

Facility response: Medical Center Policy for the Restorative Nursing Program has been
revised to require monthly documentation. Education was provided to all Community
Living Center Registered Nurses on this changed documentation requirement.
Compliance will be monitored by the Restorative Nurse Manager and MDS Coordinator
monthly. Auditing results will be reported to the Executive Committee for Nursing Staff
monthly to ensure compliance is monitored.

Recommendation 6. We recommended that processes be strengthened to ensure that
providers are notified of critical laboratory and abnormal radiology test results/values
within the expected timeframe and that notification is documented in the EHRs.

Concur

Target date for completion: May 30, 2014

Facility response: Facility policy is being revised to ensure critical results are transmitted
immediately by direct communication to the ordering provider and appropriately
documented in the EHR. If the ordering practitioner is not available, communication will
be made to a surrogate practitioner. When both ordering and surrogate practitioners
are not available, a process will be in place for the communication of results to another
practitioner who can take action. Monitoring will be ongoing to ensure performance
within the expected timeframes and that notification is documented in the EHR.


VA OIG Office of Healthcare Inspections                                                      23
                                CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY


Auditing results will be reported to the Executive Committee for Medical Staff monthly to
ensure compliance is monitored.

Recommendation 7. We recommended that processes be strengthened to ensure that
all patients are notified of normal test results/values within the expected timeframe and
that notification is documented in the EHRs.

Concur

Target date for completion: May 30, 2014

Facility response: Standardized note template has been implemented to strengthen the
notification of normal test results/values within the expected timeframes and that
notification is documented in the EHR. This templated note will be the required
documentation process for non-face to face notification of results to patients. Face to
face communication is documented at the time of visit. Monitoring will be by clinical
chiefs in the ongoing professional practice evaluations chart reviews quarterly and by
the medical records committee for aggregate review. Auditing results will be reported to
the Executive Committee for Medical Staff monthly to ensure compliance is monitored.




VA OIG Office of Healthcare Inspections                                                      24
                                CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY
                                                                                     Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Annette Acosta, RN, MN, Team Leader
Contributors            Elaine Kahigian, RN, JD
                        Frank Keslof, EMT, MHA
                        Jeanne Martin, PharmD
                        Christopher Barlow, Special Agent, Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                      25
                                CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY
                                                                                     Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Interim Director, VA Health Care Upstate New York (10N2)
Director, Canandaigua VA Medical Center (528A5/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Kirsten E. Gillibrand, Charles E. Schumer
U.S. House of Representatives: Chris Collins


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                      26
                                        CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY
                                                                                             Appendix G

                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
    Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
    Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
   References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
    Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
   The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.




VA OIG Office of Healthcare Inspections                                                                             27
                                           CAP Review of the Canandaigua VA Medical Center, Canandaigua, NY



5
    References used for this topic included:

 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008. 

 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set

    (MDS), January 4, 2013.
 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
    Manual, Version 3.0, May 2013.
 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
 Various requirements of The Joint Commission.
6
    References used for this topic were:
 VHA Handbook 1162.02, Mental Health Residential Rehabilitation Treatment Program (MH RRTP),
    December 22, 2010.
 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
 Requirements of the VHA Center for Engineering and Occupational Safety and Health and the National Fire
  Protection Association.
7
 References used for this topic were:
 VHA Directive 2009-019, Ordering and Reporting Test Results, March 24, 2009.
 VHA Directive 1106, Pathology and Laboratory Medicine Service, April 5, 2013.
 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
  October 4, 2011.
 Various requirements of the Joint Commission.




VA OIG Office of Healthcare Inspections                                                                       28
